Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


  UNIVERSITY OF CALIFORNIA,
SAN DIEGO, GENERALLY CLAIMED
 ADMINISTRATIVE AND CLERICAL
   PAYROLL COSTS CHARGED
  DIRECTLY TO HHS AWARDS
     IN ACCORDANCE WITH
    FEDERAL REGULATIONS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General
                                                   for Audit Services

                                                        June 2014
                                                      A-09-12-01001
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

 For a 2-year period, the University of California, San Diego, generally claimed
 administrative and clerical payroll costs charged directly to HHS awards in accordance
 with Federal regulations. However, a small amount of costs was unallowable.

WHY WE DID THIS REVIEW

The Department of Health and Human Services (HHS) award administration rules require
recipients of awards to ensure that costs charged to those awards are allowable under applicable
Federal regulations. The University of California, San Diego (the University), received
significant funding from HHS awards, including funding from the American Recovery and
Reinvestment Act (Recovery Act). In fiscal year 2010, the University received $485.9 million
from HHS awards and $73.4 million from the Recovery Act. This review was performed as part
of a series of Office of Inspector General reviews conducted at colleges and universities to
determine whether administrative and clerical costs were claimed in accordance with Federal
requirements.

Our objective was to determine whether the University claimed reimbursement for
administrative and clerical payroll costs charged directly to HHS awards in accordance with
Federal regulations and applicable guidelines.

BACKGROUND

By accepting HHS awards, the University agreed to comply with regulations governing the use
of Federal funds and to ensure that costs charged to those awards were allowable under the cost
principles established in 2 CFR part 220, Appendix A. The regulations governing the
allowability of direct costs charged to Federal grants, contracts, and other agreements require
that, to be allowable, a direct cost must be reasonable, be allocable, be treated consistently, and
conform to any limitations or exclusions set forth in the cost principles.

The regulations state that payroll costs of administrative and clerical staff should normally be
treated as facilities and administrative (F&A) costs. However, direct charging of these costs may
be appropriate for a major project that explicitly budgets for administrative or clerical services
and in which the individuals involved can be specifically identified with the project.

The University, located in La Jolla, California, is a publicly funded institution of higher
education and 1 of the 10 campuses of the University of California system. At the University,
administrative and clerical services are generally provided by regular and general assistance
employees.

HOW WE CONDUCTED THIS REVIEW

Our review covered payroll costs of $119.9 million claimed by the University from
October 1, 2008, through September 30, 2010, for regular and general assistance employees.



Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)   i
We limited our review to administrative and clerical payroll costs charged as direct costs to
grants, contracts, and other agreements between the University and components of HHS,
including the National Institutes of Health and the Public Health Service. We reviewed a
stratified random sample of 200 monthly payroll payment records.

WHAT WE FOUND

The University generally claimed reimbursement for administrative and clerical payroll costs
charged directly to HHS awards in accordance with Federal regulations and applicable
guidelines. Of the 200 sampled monthly payroll payment records, 195 were allowable, and
5 were unallowable. The five unallowable sample items totaled $3,765, consisting of $2,510 of
unallowable direct administrative and clerical payroll costs and $1,255 of related F&A costs.
The University claimed unallowable costs because it did not always provide adequate oversight
of administrative and clerical payroll costs charged directly by departments to HHS awards to
ensure compliance with Federal regulations.

WHAT WE RECOMMEND

We recommend that the University:

    •   refund $3,765 to the Federal Government and

    •   enhance oversight of administrative and clerical payroll costs charged directly to HHS
        awards to ensure compliance with Federal regulations.

UNIVERSITY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the University concurred that four of the five sampled
monthly payroll payment records were unallowable. The University agreed to refund $1,766 to
the Federal Government for two of the sample items and stated that it had made corrections to
the HHS awards for the remaining two sample items. However, the University did not concur
with our disallowance for one sample item and maintained that the payroll costs for the
individual were appropriately charged directly to the HHS award. Regarding our second
recommendation, the University stated that it had communicated our findings to the appropriate
University officials and would continue to provide education and guidance on appropriate
charging of administrative and clerical costs. However, the University stated that because of the
small number and dollar value of the errors, it did not believe a change in business practices for
charging or supporting effort on sponsored awards was warranted.

After reviewing the University’s comments, we concluded that the University did not provide
adequate documentation to substantiate that the administrative costs charged directly to the HHS
award were allowable. We continue to recommend that the University refund to the Federal
Government the unallowable cost for this sample item. In addition, we continue to recommend
that the University enhance its oversight of administrative and clerical payroll costs charged
directly to HHS awards to ensure compliance with Federal regulations.




Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)   ii
                                                     TABLE OF CONTENTS

INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
               Federal Regulations for Determining Allowability of Costs.................................. 1
               University of California, San Diego ....................................................................... 2
               University Award Administration .......................................................................... 2

           How We Conducted This Review.................................................................................. 2

FINDINGS ................................................................................................................................. 3

           Federal Requirements .................................................................................................... 3

           The University Claimed Some Unallowable Administrative and
            Clerical Payroll Costs ................................................................................................. 4
                Costs Were Not Treated Consistently ................................................................... 4
                Award Was Not a Major Project ........................................................................... 4
                Applicable Credits Were Not Used To Offset Allowable Costs........................... 4
                After-the-Fact Activity Report Was Not Certified ............................................... 4
                Related Facilities and Administrative Costs Were Unallowable .......................... 5

RECOMMENDATIONS ........................................................................................................... 5

UNIVERSITY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................. 5

OTHER MATTER ..................................................................................................................... 7

APPENDIXES

           A: Related Office of Inspector General Reports ........................................................... 8

           B: Audit Scope and Methodology................................................................................. 9

           C: Federal Regulations for Determining Allowability of Costs ................................... 12

           D: University Comments .............................................................................................. 13




Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)                                          iii
                                                INTRODUCTION

WHY WE DID THIS REVIEW

The Department of Health and Human Services (HHS) award administration rules require
recipients of awards to ensure that costs charged to those awards are allowable under applicable
Federal regulations. 1 The University of California, San Diego (the University), received
significant funding from HHS awards, including funding from the American Recovery and
Reinvestment Act (Recovery Act). In fiscal year 2010, the University received $485.9 million
from HHS awards and $73.4 million from the Recovery Act. This review was performed as part
of a series of Office of Inspector General (OIG) reviews conducted at colleges and universities to
determine whether administrative and clerical costs were claimed in accordance with Federal
requirements. (See Appendix A for a list of related OIG reports.)

OBJECTIVE

Our objective was to determine whether the University claimed reimbursement for
administrative and clerical payroll costs charged directly to HHS awards in accordance with
Federal regulations and applicable guidelines.

BACKGROUND

Federal Regulations for Determining Allowability of Costs

By accepting HHS awards, the University agreed to comply with regulations governing the use
of Federal funds and to ensure that costs charged to those awards were allowable under the cost
principles established in 2 CFR part 220, Appendix A (formerly the Office of Management and
Budget Circular A-21). The regulations governing the allowability of direct costs charged to
Federal grants, contracts, and other agreements require that, to be allowable, a direct cost must
be reasonable, be allocable, be treated consistently, and conform to any limitations or exclusions
set forth in the cost principles. Consistent treatment of costs means that costs incurred for the
same purpose, in like circumstances, must be treated uniformly either as direct costs or facilities
and administrative (F&A) costs. 2

The regulations provide that payroll costs of administrative and clerical staff should normally be
treated as F&A costs and that the applicable portion of these costs should be recovered through
the F&A rates negotiated with the Federal Government. However, direct charging of these
payroll costs may be appropriate for a major project that explicitly budgets for administrative or

1
 HHS administrative rules are incorporated in 45 CFR part 74, Uniform Administrative Requirements for Awards
and Subawards to Institutions of Higher Education, Hospitals, Other Nonprofit Organizations, and Commercial
Organizations, and provide that the allowability of costs incurred by institutions of higher education is determined in
accordance with the provisions of 2 CFR part 220.
2
  Direct costs are “those costs that can be identified specifically with a particular sponsored project, an instructional
activity, or any other institutional activity …” (2 CFR part 220, Appendix A, § D.1). F&A costs are “those that are
incurred for common or joint objectives and therefore cannot be identified readily and specifically with a particular
sponsored project, an instructional activity, or any other institutional activity” (2 CFR part 220, Appendix A, § E.1).


Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)                1
clerical services and in which the individuals involved can be specifically identified with the
project. The regulations define a major project as one that requires an extensive amount of
administrative or clerical support, which is significantly greater than the routine level of such
services normally provided by academic departments.

University of California, San Diego

The University, located in La Jolla, California, is a publicly funded institution of higher
education and 1 of the 10 campuses of the University of California system. At the University,
administrative and clerical services are generally provided by regular and general assistance
employees. From October 1, 2008, through September 30, 2010, the University claimed payroll
costs for regular and general assistance employees totaling $119.9 million.

University Award Administration

The University’s Office of Contract and Grant Administration is responsible for issues and
inquiries related to proposal development and preaward activities. The Office of Post Award
Financial Services is responsible for project accounting, financial reporting, and effort
certifications. This office certifies to funding agencies that award expenditures comply with
award financial terms and conditions, including 2 CFR part 220, as well as University policies.

Principal investigators (PIs) 3 and University departments are responsible for ensuring that all
direct costs proposed and incurred meet the Federal and University requirements for proposing
and charging of direct costs. The University uses after-the-fact activity reports generated by its
effort-reporting system to support actual effort expended on federally sponsored projects. These
reports are electronically certified by the employee, PI, or responsible official. The effort-
reporting system is a University of California Web-based system used at various campuses,
including the University’s.

HOW WE CONDUCTED THIS REVIEW

Our review covered payroll costs of $119,926,937 claimed by the University from
October 1, 2008, through September 30, 2010, for regular and general assistance employees.
We limited our review to administrative and clerical payroll costs charged as direct costs to
grants, contracts, and other agreements between the University and components of HHS,
including the National Institutes of Health (NIH) and the Public Health Service. 4

To determine the allowability of the administrative and clerical payroll costs charged as direct
costs to HHS awards, we reviewed a stratified random sample of 200 monthly payroll payment



3
 The PI is the individual who has the appropriate level of authority and responsibility to direct the project or
program supported by the award. The PI is accountable to the awarding agency for the proper conduct of the project
or program, including the submission of all required reports.
4
 We will issue a separate report on our review of the University’s administrative costs other than payroll costs
charged directly to HHS awards.


Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)           2
records, totaling $503,863. 5 A small number of the sample items were charged to Recovery Act
awards. For each sample item, to confirm that the employee worked on the HHS award to which
his or her payroll costs were allocated, we relied on after-the-fact activity reports provided by the
University from its Web-based effort-reporting system.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                                  FINDINGS

The University generally claimed reimbursement for administrative and clerical payroll costs
charged directly to HHS awards in accordance with Federal regulations and applicable
guidelines. Of the 200 sampled monthly payroll payment records, 195 were allowable, and
5 were unallowable. The five unallowable sample items totaled $3,765, consisting of $2,510 of
unallowable direct administrative and clerical payroll costs and $1,255 of related F&A costs. 6
The University claimed unallowable costs because it did not always provide adequate oversight
of administrative or clerical costs charged directly by departments to HHS awards to ensure
compliance with Federal regulations.

FEDERAL REQUIREMENTS

The regulations in 2 CFR part 220, Appendix A, provide cost principles for determining the
allowability of costs, including the following: (1) costs incurred for the same purpose in like
circumstances must be treated consistently either as direct or F&A costs (§ D.1); (2) direct
charging of administrative or clerical payroll costs may be appropriate for a major project or
activity that explicitly budgets for administrative or clerical services and in which the individuals
involved can be specifically identified with the project or activity (§ F.6.b.(2)); (3) the costs of an
award comprise allowable direct costs less any applicable credits (§ C.1), and (4) after-the-fact
activity reports will be signed by the employee, PI, or responsible officials (§ J.10.c.(2)(c)).

See Appendix C for details on the applicable Federal regulations.




5
  The sample consisted of 193 randomly selected monthly payroll payment records that were greater than $100 and
less than or equal to $14,000, and all monthly payroll payment records that exceeded $14,000 (7 records), totaling
200 sample items.
6
 Because we determined that only a small number of sample items were unallowable, we questioned the actual
unallowable payroll costs but did not estimate a disallowance for the population.


Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)             3
THE UNIVERSITY CLAIMED SOME UNALLOWABLE ADMINISTRATIVE AND
CLERICAL PAYROLL COSTS

The University claimed reimbursement for some unallowable administrative and clerical payroll
costs, including costs that were not treated consistently, costs charged directly to an award that
was not a major project, costs for which applicable credits were not used to offset allowable
costs, and costs charged directly to a major project for which an after-the-fact activity report was
not certified. The University also claimed unallowable related F&A costs.

Costs Were Not Treated Consistently

For one sample item, the University claimed $920 of unallowable administrative payroll costs for
an assistant department business officer of a research unit’s business office. Bid and proposal
activities are normally treated as F&A costs. The grant progress report stated that the research
unit’s business office was instrumental in preparing large-scale grants, multiple applications for
Recovery Act grants, and cancer center support grants. Because the employee worked on
business aspects of these bid and proposal activities, the employee’s payroll costs were not
allowable direct charges to the HHS award.

Award Was Not a Major Project

For one sample item, the University claimed $782 of unallowable clerical payroll costs for a fund
manager. The costs were charged directly to an HHS award that was not a major project. The
project did not conform to the examples of a major project in Exhibit C of 2 CFR part 220, such
as grants and contracts that entail assembling and managing teams of investigators from a
number of institutions and projects that require extensive data accumulation, analysis, and entry.
In addition, the project did not explicitly budget for administrative and clerical services.

Applicable Credits Were Not Used To Offset Allowable Costs

For two sample items, the University claimed $441 of unallowable clerical payroll costs charged
to two HHS awards for two employees. Applicable credits were not used to offset the allowable
clerical payroll costs. The University’s policy is to charge vacation as it is earned to the projects
an employee is working on and to provide an offset when vacation is taken. The two employees
had taken vacations; however, because of clerical errors, the departments did not apply the
applicable credits to the HHS awards.

After-the-Fact Activity Report Was Not Certified

For one sample item, the University claimed $367 of unallowable clerical service costs charged
directly to a major project for one employee. The employee’s after-the-fact activity report for
the major project was not certified by the employee, PI, or responsible official. The costs were
claimed because of a lack of departmental oversight.




Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)   4
Related Facilities and Administrative Costs Were Unallowable

For the five sample items, the University claimed $1,255 of unallowable F&A costs related to
the unallowable direct payroll costs of $2,510 charged to HHS awards. To determine the amount
of unallowable F&A costs claimed, we applied the University’s applicable F&A cost rate to the
monthly payroll payment record amounts determined to be in error.

                                        RECOMMENDATIONS

We recommend that the University:

    •   refund $3,765 to the Federal Government and

    •   enhance oversight of administrative and clerical payroll costs charged directly to HHS
        awards to ensure compliance with Federal regulations.

  UNIVERSITY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the University partially agreed with our findings and
recommendations. The University’s comments are included as Appendix D. We did not include
the University’s attachments supporting corrections that it made to HHS awards because the
attachments contained personally identifiable information.

UNIVERSITY COMMENTS

The University concurred that four of the five sampled monthly payroll payment records were
unallowable. The University agreed to refund $1,766 to the Federal Government for two of the
sample items and stated that it had made corrections to the HHS awards for the remaining two
sample items. However, the University did not concur with our disallowance for one sample
item for costs that were not treated consistently. The University maintained that the payroll costs
for the individual were appropriately charged directly to the HHS award. The University stated
that 67 percent of the employee’s effort was allocated to the HHS award and 33 percent was
allocated to nonsponsored activities. The University also stated that OIG cannot conclude on the
basis of the progress report alone that preaward activities were not allocated to nonsponsored
activities but acknowledged that the documentation provided may not have adequately supported
the sample item.

Regarding our second recommendation, the University stated that it had communicated our
findings to the appropriate University officials and would continue to provide education and
guidance on appropriate charging of administrative and clerical costs. However, the University
stated that because of the small number and dollar value of the errors, it did not believe a change
in business practices for charging or supporting effort on sponsored awards was warranted.




Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)   5
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the University’s comments, we concluded that the University did not provide
adequate documentation to substantiate that preaward activities (i.e., bid and proposal activities)
were allowable direct costs under the Federal award. The progress report described only those
types of activities for the individual. Bid and proposal activities are F&A activities and are not
normally charged directly to Federal awards. Because the University acknowledged that the
documentation it provided may not have adequately supported the sample item, we continue to
recommend that the University refund to the Federal Government the unallowable cost for this
sample item.

Regarding our second recommendation, although the number of sample items found to be
unallowable was small, our findings indicate that University oversight of administrative and
clerical costs charged directly to HHS awards is warranted. We continue to recommend that the
University enhance its oversight of administrative and clerical payroll costs charged directly to
HHS awards to ensure compliance with Federal regulations.




Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)   6
                                            OTHER MATTER

A UNIVERSITY DEPARTMENT DID NOT FOLLOW FEDERAL GUIDELINES AND
UNIVERSITY POLICY FOR REPORTING IMPROPER GOVERNMENTAL ACTIVITY

The NIH Grants Policy Statement states that any individual who becomes aware of the existence
(or apparent existence) of fraud, waste, or abuse related to NIH grants or grant funds should
consider contacting the institution’s responsible officials. In addition, the University of
California Policy on Reporting and Investigating Allegations of Suspected Improper Government
Activities specifies the reporting and investigation of improper governmental activities.

In November 2010, a University department failed to follow the NIH Grants Policy Statement
and University policy by not reporting to the University’s local designated official (LDO) an
alleged improper governmental activity by one part-time employee. The LDO has principal
responsibility for meeting the reporting requirements and responsibility for ensuring that
independent, unbiased, and competent investigative resources are used to conduct investigations
of suspected improper governmental activity. Because the department did not report the alleged
improper governmental activity to the LDO, the University’s ability to ensure an appropriate
response and protection of the rights of all involved parties was affected. For example, the
employee continued to work on an NIH award even after admitting improper activity to the
department and was not interviewed by appropriate University officials, such as campus police
or University internal investigators. The employee left the University before an investigation
was initiated.

Almost a year after the department became aware of the suspected improper activity, the
University transferred the improper payroll costs out of the NIH awards, initiated an
investigation into the alleged improper activity, and finally issued an investigative report in
May 2012 to University officials and the Office of the President.




Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)   7
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                                Report                Date
                             Report Title
                                                                                Number               Issued
The University of South Florida Did Not Always Claim Costs in                A-04-12-01016         4/25/2014
Accordance With Federal Regulations

The University of Colorado Denver Did Not Always Claim                       A-07-11-06013          6/7/2013
Selected Costs Charged Directly to Department of Health and
Human Services Awards in Accordance With Federal
Regulations

Thomas Jefferson University Generally Claimed Selected Costs                 A-03-11-03300          6/4/2013
Charged to Department of Health and Human Services Awards
in Accordance With Federal Regulations

Review of Select Expenditures Claimed by The Research                        A-02-11-02008         8/28/2012
Foundation of the State University of New York, State
University of New York at Stony Brook

Florida State University Did Not Always Claim Selected Costs                 A-04-11-01095         7/19/2012
Charged Directly to Department of Health and Human Services
Awards in Accordance With Federal Regulations and National
Institutes of Health Guidelines

Review of Administrative and Clerical Costs at The Ohio State                A-05-11-00030        12/13/2011
University for the Period July 1, 2008, through June 30, 2010

Review of Select Expenditures Claimed by The Research                        A-02-11-02000        10/13/2011
Foundation of the State University of New York, State
University of New York at Albany

Review of Administrative and Clerical Costs at Dartmouth                     A-01-11-01500          8/5/2011
College for Fiscal Years 2009 Through 2010




Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)       8
                     APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered payroll costs of $119,926,937 claimed by the University from
October 1, 2008, through September 30, 2010 (audit period), for regular and general assistance
employees. We limited our review to administrative and clerical payroll costs charged as direct
costs to grants, contracts, and other agreements between the University and components of HHS,
including NIH and the Public Health Service. 7 We did not evaluate administrative and clerical
payroll costs charged to other Federal Departments and agencies.

To determine the allowability of the administrative and clerical payroll costs charged as direct
costs to HHS awards, we reviewed a stratified random sample of 200 monthly payroll payment
records, totaling $503,863. A small number of the sample items were charged to Recovery Act
awards.

We limited our assessment of internal controls to the University’s policies and procedures for
charging administrative and clerical payroll costs to HHS awards. We did not assess the
University’s Web-based effort reporting system. We conducted our fieldwork at the University’s
offices in La Jolla, California.

METHODOLOGY

To accomplish our objective, we:

    •    reviewed applicable Federal regulations and the NIH Grants Policy Statement;

    •    reviewed the findings of prior OIG reviews of administrative and clerical costs claimed
         by colleges and universities;

    •    interviewed University officials in Contract and Grant Administration, Post Award
         Financial Services, Audit and Management Advisory Services (AMAS), and the
         Financial Analysis Office to obtain an understanding of the identification and oversight
         of administrative and clerical costs;

    •    interviewed University department managers and fund managers to obtain an
         understanding of their oversight and monitoring of administrative and clerical costs;

    •    reviewed the University’s policies and procedures related to the identification of and
         accounting for administrative and clerical costs;

    •    reviewed the University’s March 9, 2007, Cost Accounting Standards Board Disclosure
         Statement submitted to the HHS Division of Cost Allocation;


7
 We will issue a separate report on our review of the University’s administrative costs other than payroll costs
charged directly to HHS awards.


Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)           9
     •   reviewed the University’s chart of accounts and related descriptions;

     •   obtained information from AMAS on job title codes identified with payroll costs that are
         normally considered F&A costs and job title codes identified with payroll costs that are
         normally considered direct research-project-related costs (i.e., technical services);

     •   obtained a data extract from the University’s Financial Analysis Office containing total
         expenditures that the University charged to Federal awards for our audit period and
         reconciled the total expenditures with the University’s historical financial reports;

     •   obtained a data extract from the University’s Financial Analysis Office containing total
         operating ledger expenditures by account category for our audit period for HHS awards
         and reconciled the total expenditures with HHS award total expenditures included in the
         Federal award data extract;

     •   obtained two data files 8 from the University’s Financial Analysis Office containing all
         transactions for regular staff and general assistance employee payroll costs and the
         associated fringe benefits that were charged directly to HHS awards for the audit period
         and reconciled the gross payroll costs with the University’s operating ledger;

     •   combined each employee’s payroll and vacation leave accrual transactions by the
         employee’s unique identification number, job title code, unique HHS award fund number,
         and payroll effective month/year to create a monthly payroll payment record;

     •   removed all monthly payroll payment records that had an amount that was zero, negative,
         or $100 or less to arrive at our sampling frame of 52,894 monthly payroll payment
         records totaling $119,926,937;

     •   used a stratified random sample consisting of four strata; 9

     •   selected and determined the allowability of 200 monthly payroll payment records; 10

     •   considered corresponding negative adjustments for an erroneous monthly payroll
         payment record if the University provided adequate supporting documentation for the
         adjustments;


8
 The data files were the (1) Distribution of Payroll Expense Schedule, which contained the gross payroll and
associated fringe benefit transactions for regular and general assistance employees, and (2) Vacation Leave Accrual,
which contained the detailed transactions for the payroll costs associated with employees’ vacations that had been
earned and used.
9
  We assigned levels of potential risk to three of the four strata (high, medium, and low), representing the degree of
risk that the University inappropriately charged administrative and clerical payroll costs as direct costs. The risk
level was based on employee job title codes and job title code information provided by the University. The fourth
stratum was a certainty stratum and included all monthly payroll payment records that exceeded $14,000.
10
  We randomly selected 103 records from stratum 1 (high risk), 60 records from stratum 2 (medium risk), and
30 records from stratum 3 (low risk). We selected all 7 records in stratum 4.


Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)             10
     •   evaluated the 200 sample items on the basis of documentation provided by the
         University, which included the notice of award, grant application and grant progress
         report, University employee job-description, employee time records, employee
         after-the-fact activity reports, employment history and funding sources, and employee
         leave summary report;

     •   discussed our preliminary findings with NIH representatives and reviewed information
         provided by NIH;

     •   computed the F&A costs related to the unallowable monthly payroll payment records; 11
         and

     •   discussed our findings with University officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




11
  Direct payroll costs are used to compute the amount of F&A costs charged to HHS awards. To determine the
amount of unallowable F&A costs related to the unallowable direct payroll costs, we applied the applicable F&A
rate to the monthly payroll payment record amount determined to be in error.


Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)         11
             APPENDIX C: FEDERAL REGULATIONS FOR DETERMINING
                           ALLOWABILITY OF COSTS

Federal regulations state: “Direct costs are those costs that can be identified specifically with a
particular sponsored project, an instructional activity, or any other institutional activity, or that
can be directly assigned to such activities relatively easily with a high degree of accuracy. Costs
incurred for the same purpose in like circumstances must be treated consistently as either direct
or F&A costs.” (2 CFR part 220, Appendix A, § D.1.)

Federal regulations state: “Proposal costs are the costs of preparing bids or proposals on
potential federally and non-federally-funded sponsored agreements or projects, including the
development of data necessary to support the institution’s bids or proposals. Proposal costs of
the current accounting period of both successful and unsuccessful bids and proposals normally
should be treated as F&A costs ….” (2 CFR part 220, Appendix A, § J.38.)

Federal regulations state:

        The salaries of administrative and clerical staff should normally be treated as
        F&A costs. Direct charging of these costs may be appropriate where a major
        project or activity explicitly budgets for administrative or clerical services and
        individuals involved can be specifically identified with the project. “Major
        project” is defined as a project that requires an extensive amount of administrative
        or clerical support, which is significantly greater than the routine level of such
        services provided by academic departments. (2 CFR part 220, Appendix A,
        § F.6.b.(2).)

Exhibit C of 2 CFR part 220 provides examples of major projects, such as (1) grants and
contracts that entail assembling and managing teams of investigators from a number of
institutions (2) and projects that require extensive data accumulation, analysis, and entry.

Federal regulations provide that the cost of an award comprises the allowable direct costs, plus
the allocable portion of the allowable F&A costs, less applicable credits (2 CFR part 220,
Appendix A, § C.1). The regulations also state: “… ‘applicable’ credits refers to those receipts
or negative expenditures that operate to offset or reduce direct or F&A cost items” (2 CFR
part 220, Appendix A, § C.5.a).

Federal regulations state: “[After-the-fact activity reports] will reasonably reflect the activities
for which employees are compensated by the institution. To confirm that the distribution of
activity represents a reasonable estimate of the work performed by the employee during the
[reporting] period, the reports will be signed by the employee, principal investigator, or
responsible official(s) using suitable means of verification that the work was performed.”
(2 CFR part 220, Appendix A, § J.10.c.(2)(c).)




Administrative and Clerical Payroll Costs Claimed by University of California, San Diego (A-09-12-01001)   12
                              APPENDIX D: UNIVERSITY COMMENTS 




          UNIVERSITY OF CALIFORNIA, SAN DIEGO                                                                   UCSD 





          AUDIT & MANAGEMENT ADVISORY SERV ICES                                  9500 GILMAN DRI VE- 0919
          TEL: (858) 534-36 17                                                   LA JOLLA, CA LIFORN IA 92093-09 19
          FAX: (858) 534-7682



                                                                  May 14,2014


             Lori A. Ahlstrand 

             Regional Inspector General for Audit Services 

             Department of Health and Human Services 

             Office of Inspector Gene ra l 

             O ffice of A udit Services, Region IX 

             90 - i" Street, Suite 3-650 

             San Francisco, CA 94 103 



             Re: Report nu mber: A-09-12-0 1001


             Dear Ms. Ahlstrand:

             University of California, San Diego (UCSD) provides its written response to the Department of
             Health and Human Services (Dl lHS) Office of Inspector General (OIG) April 15, 20 14 draft
             report enti tl ed Universily ofCalifornia, San Diego, Generally Claimed Administrative and
             Clerical Payroll Cosls Charged Directly to !IllS Awards in Accordance with Federal
             Regulations.

             T hank you for the opportunity to respond to the findings that were identified in your audit. If
             yo u have a ny questions related to the responses provided, please contact me at 858-534- 1334.




                                                                  David Meier
                                                                  Director
                                                                  Audit and Management Advisory Services
                                                                  University of California , San Diego




Administrative and Clerical Payroll Costs Cla imed by University of Califo rnia, San Diego (A-09-12-01001)               13
             DHHS-OIG Report A-09- 12-0 1001
             UCSD Response

                        University of California, San Diego- Response to Draft Audit Report

             University of California, San Diego (University) submits these comments in response to the
             April 15, 2014 Department of Health and I Iuman Services(DHHS) Office of Inspector General
             (OJG) draft report entitled Univers ily ofCalifornia, San Diego, Generally Claimed
             Administrative and Clerical Payroll Costs Charged Directly to HHS Awards in Accordance with
             Federal Regulations (OIG Draft Repmt).

             The OIG made two (2) recommend ations in its OIG Draft Report, and commented on one Other
             MaUer. Responses to each are provided below.

             I. 	OIG RECOMMENDATION: UNIVERSITY SHOULD REFUND $3,765 TO THE
                FEDERAL GOVERNMENT

                The OIG sampled 200 payroll transactions, finding that five (5) transactions in four areas
                were either una llowable or partially unallowable. We agree with fo ur of the five unallowable
                items, as noted below.

                A. 	 OIG FINDING #1 -COSTS WERE NOT TREATED CONSISTENTLY

                    RECOMMENDED ACTION: 

                    Refund the Federa l Government $920 of unallowable admini strative payroll costs plus 

                    associated indirect costs. 


                    University Response: 


                    The University does not concur wi th the OIG's di sallowance of this transaction. We 

                    maintain that the indi v idual was appropriately charged di rectly on the HHS award due to 

                    circumstances that were unlike the acti vities that are normally included in the 

                    Uni versity's fac ilities and administrative (F&A) cost pools. 


                    The assistant department business officer (ADBO) is responsible fo r managi ng the 

                    Cancer Center Support Grant (CCSG), which is a maj or project. Although thi s individual 

                    worked on the business/financial aspects of a nw11ber of grant proposals during the 

                    reporting period , this time was not charged to the CCSG. The indivi dual's effort was 

                    split-funded between the sampled federal award (at 67 percent) and non-sponsored 

                    funding (at 33 percent). Her primary functions relative to the CCSG were to allocate the 

                    CCSG award, monitor CCSG expenses, report those expenses to the various program and 

                    shared resource directors, and also manage the recharge accounts of the eight shared 

                    reso urces receiving CCSG support. Additionally, the ADBO managed the pilot project 

                    program supported within the CCSG Developmental Funds category. She advised 

                    leadership on the amount of funds available for awards, advised awarded project directors 

                    of the status of their pilot project fu nds. and reported on the funds in CCSG progress 

                    repmts. The indi vidual attended program pla1ming and operations meeti ngs for activities 

                    partia lly supported by the CCSG and advised on the status of funds currently awarded 

                    and planned for the future. T he CCSG Guidelines confirm the allowability of "costs 


                                                             2




Administrative and Clerical Payroll Costs Claimed by University ofCalifo rnia, San Diego (A-09-12-01001)           14
            DHl-IS-OIG Report A-09-12-01001
            UCSD Response

                       necessary for central ad ministration of resources and services required for ce nter research
                                                                                              1
                       acti vities, fi scal management of the center, and reporting activities ." Altho ugh the
                       progress report indicated so me pre-award activity, OIG cann ot conclude based on thi s
                       info rmati on alone that pre-award duties were not allocated to other non-sponsored
                       acti vity (33%).

                      While the Un ive rs ity does not concur with the find ing, we acknowledge that the
                      documentatio n provided may not have adequately su pported this sampled transaction.
                      We have advised the appropriate leadership to ensu re that the indi vidual's activities are
                      more accurately documented in fut ure progress reports to ensure consistency with the job
                      description and the indiv idual's actual post-award duties.

                  H. 	 OIG FINDING #2 - A WARD WAS NOT A MAJOR PROJECT

                       RECOMMENDED ACTION:
                       Refund the Federal Government $782 of unallowable administrative payroll costs plus
                       associated indi rect costs.

                       University Response:

                      The University concurs with the OIG's disallowance of this transaction and agrees to
                      refund $782 plus associated indirect costs. The employee separated from the University
                      in 2011, and this role o n the awa rd was not continu ed. Therefore, there was no continued
                      charge to the award for this administrative support.

                  C. 	 OIG FINDING #3 & #4- APPLICABLE CREDITS WERE NOT USED TO 

                       OFFSET ALLOWABLE COSTS 


                       RECOMMENDED ACTION:
                       Refund the Federal Govenm1ent $441 of unallowable clerical payroll costs charged to
                       two HHS awards fo r two employees .

                      University Response:

                      The Un iversit y conc urs that applicable credits for vacation taken were not in itiall y
                      applied correctly to two HI-IS awards. Upon discovery, we instructed the cognizant
                      University d epartments to correct the vacation credits. Please find the corrected j ou rnal
                      vouchers in A ttachment A. The corrections were distr ibuted to th e applicabl e HI-IS
                      awards while the awards were open. Therefore, a separate refund for the $44 1 plus
                      associated indirect costs is unnecessary.




            1
                Cancer Center Support Grant Guidelines Oct 26 , 20 I0, 

                http://web .archive.org/web/20 I0 1206 145651 /http:l/cancercenters.cancer.gov/documents/CCSG_ Guidelines.pdf 


                                                                       3




Administrative and Clerical Payroll Costs Claimed by University ofCalifornia, San Diego (A -09-12-01001)                          15
             OJ IHS-OIG Report A-09- 12-0 1001
             UCSD Response

                D. OIG FINDING #5 - AFTER-THE-FACT ACTIVITY REPORT WAS NOT 

                   CERTIFIED 


                   RECOMMENDED ACTION:
                   Refund the federal Government $367 ofunallowable clerical service costs plus
                   associated indirect costs.

                    University Response:

                   The University concurs that the employee, Principal Investigator (PI), or responsible
                   official did not certify the employee's after-the-fact activity report. In this case, the
                   oversight was attributable to transition issues after the origi nal PI departed the University.
                   The University wi ll continue to provide training for departments to ensure that such
                   transitions are administered so that a responsible official individual certifies sponsored
                   project effort. The Universit y agrees to refund $367 plus associated indirect costs.

                Based on the above, the University agrees to refund $1,766 ($1,149 in direct costs, $617
                in indirect costs) to the federal government for findings 2 and 5 above. Please advise
                how UCSD should process this reimbursement.


            2. 	 OIG RECOMMENDATION: UNIVERSITY SHOULD ENHANCE OVERSIGHT OF
                 ADMINISTRATIVE AND CLERICAL PAYROLL COSTS CHARGED DIRECTLY
                 TO HHS AWARDS TO ENSURE COMPLIANCE WITH FEDERAL REGULATIONS

                The University has communicated the findings of this review to the appropriate University
                officials and will continue to provide education and guidance regarding appropriate charging
                of administrative and clerical costs. Because of the small number and dollar value of errors
                noted, we do not believe a change in University business practices for charging or supporting
                effort on sponsored awards is warranted.


            3. 	 OTHER MATTER- A UNIVERSITY DEPARTMENT DID NOT FOLLOW
                 FEDERAL GUIDELINES AND UNIVERISTY POLICY FOR REPORTING
                 IMPROPER GOVERNMENTAL ACTIVITY

                The University acknowledges that the Un iversity department did not raise the improper
                governmental activity to the Local Designated Official (LDO) for an appropriate Un iversity
                investigation in accordance with University policy. University leadership has been made
                aware of this issue, and additional education is planned for departments to prevent future
                reoccurrences. The employee's payroll costs were transferred to an unrestricted non -federal
                University funding source in total to ensure the sponsored award was not financially
                impacted.

                Further, the Department has begun implementation of the MyTime application for electronic
                processing and approval oftimesheets, which will eliminate paper timesheets and the

                                                              4




Administrative and Clerical Payroll Costs Claimed by University ofCalifornia, San Diego (A -09-12-01 001)            16
            DHHS-OIG Report A-09- 12-01001
            UCSD Response

                possibly of a future reoccurrence of this issue. Currently, all non-exempt staff and a portion
                of student employees in the Department have switched to MyTime. The transition of student
                employees to MyTime is being implemented by all department laboratories, and the
                laboratory in wh ich this incident occurred in has been migrated to MyTime. The Department
                plans to complete the m igration for remaining staff, academics, and students by August 1,
                2014. The manual processing of timesheets, which allowed the student to alter his timesheet
                after supervisor approval, will then be completely discontinued.




                                                             5




Administrative and Clerical Payroll Costs Claimed by University ofCalifornia, San Diego (A -09-12-01001)         17
